  . TRANSFER OF ASSETS IN THE MEDICAID PROGRAM
        A CASE STUDY IN WASHINGTON STATE




                       RICHARD P. KUSSEROW
                        INSPECTOR GENERAL




o A 1- 09-88- 0 1340
                                             MAY 1989
   EXECUTIVE SUMMARY

   PURPOSE

   This study examned whether asset shelters , including property transfers
   signficant role in qualifyng people for Medicaid long-term care
                                                                            , playa
                                                                    benefits in the
   State of Washington.


  BACKGROUND

  The Tax Equity and Fisca Responsibilty Act of 1982 (TEFR)
                                                                                                   placed very strict
  lits on the tranfer of assets within 2 years of application for the purpose of
  qualifyng for Medicad. Nearly al States have adopted these restrictions and
  enforce them with varyng degrees of intensity. The Consolidated Omnbus Budget
. Reconciation Act of 1985 (COBRA) furter strengthened
                                                            limitations on the use of
  trsts to shelter assets and income. The Medicare Catastrophic Coverage Act of
  1988 (MCCA) made tranfer of assets restr tions mandatory.

 Aggregate data. indicate that more than hal                                of the nation   s nursing home costs are
 paid privately "out-of-pocket." Most observers assume that asset shelters do not play
 an important role in long-term care fuding, that " Medicaid requires
 impoverihment" and that the availabilty of Medicaid nursing home benefits does
 not impede the development of other options to finance long-term care.

In contrast, a recent Offce of Inspector General          Medicaid Estate Recoveries.
                                                                                study,
found that (1) Medicaid eligibilty staff thoughout the country report widespread
asset shelterig by applicants and their attorneys , (2) many legal shelters are
avaiable in the law, regulations and policy and (3) Medicaid nursing home
recipients frequently die with signficant estates that pass unencumbered to
noncontributing heirs. The Office of Inpector General will conduct a national
inspection of Medicaid asset shelters to determne their impact on
                                                                  States other than
Washington.


MAJOR FINDINGS

The elderly and their familes transfer or shelter )ar e amounts ofrnonev and
property to Qualify for Medicaid in Washin ton State.
Fifty-eight percent of the Washington Mediciaid nursing home cases that were
initially denied assistance because they exceeded the resource eligibilty threshold
became eligible within a few months by transferring or sheltering their 

                                                                                                         ssets.
      ... -- ---. " ---_..   .   .. - -- - - .         - ------.
                                                            :' -.. '-   . "




Advice on how to Qualifv for Medicaid nursin~ horne benefits is \\idelv available:
abuse is common.
The expeiiswho counsel MecIicaid applicants to shelter assets include private
attorneys, legal servces lawyers , social servce agencies
                                                          , the Medicaid agency staff
some nursing homes staff and private counselors. We found anecdotal evidence of
concealment , fraud and financial abuse of the elderly for the purpose
                                                                        of qualifying
for Medicaid long-term care benefits.


RECOMMENDATIONS
       . The Washington State Deparment of Social and Health Servces should
            (1) document exen:pt                             well as nonexempt .asset values and (2) verify and
                             set crfsl?          sit
          . Because- this
                     casstudy empircally coroborates our earlier, more
           anecdotal          Medicaid Estate Recoveries. we repeat the
                             , findings

           recomI mdations from that report here. (See "Recommendations " for
         - the detailed-proposals.
                 (1) ChirigeMedicaid ru1es. to permt famlies to retain and
                                                                             manage
                     propert while their elders receive long-term care.
                 (2) Strengthen the tranfer of assets rules so that people canot give
                       away propert to                      qualify for Medicaid.
                 (3) Requie a legal instrument as a condition of Medicaid eligibilty to
                     secure propert owned by applicants and recipients for later recovery.
                 (4) Increase estate recoveries as a nontax revenue source for the
                       Medicaid program while steadfastly protecting the personal and
                      propert rights of recipients and their families.
. (





        TABLE OF CONTENTS


                                                              Page
        EXECUTIV SUMMAY

        INTRODUCTION

        FINDINGS
             CAE REVIEW-- THE ELDERLY AN THIR FAMIES
             TRSFER OR SHELTER LAGE AMOUNTS OF MONEY MTI
             PROPERTY TO QUALIF FOR MEDICA IN
                                               WASHIGTON
            STATE

            INRVIEW REULTS--ADVICE ON HOW TO QUALIF FOR
            MEDICAID NUSING HOME BENEFIS IS WIELY
            AVAILE; ABUSE IS COMMON
                    ELDER LAW IS GROWIG

                    THE LEGAL ARSENAL IS DIVRSE

                    LEGAL SERVICES ATTORNYS OFFR ADVICE

                    SOCIA SERVICE AGENCIE PROVIE   REFERRA
                     ASIlGTON'S MEDICAI AGENCY HELPS PEOPLE
                  SHELTER ASSETS


                 NUSING HOME     REPREENTATI CONCUR
                 FRUD AN FIANCIA ABUSE WERE COMMON THEMES

       RECOMMENDATIONS

       BIBLIOGRAHY

       APPENDICES
           APPENDIX A: METHODOLOGY
           APPENDIX B: SAMPLE CASES
           APPENDIX C: ASSET DISPOSITIONS BY TYPE OF ASSET
.(               -!.- ---                                               .'                  ,"




        INTRODUCTION


       The objective of this study was to document the extent to which private resources
       are consumed ,  tranferred or otherwse sheltered to qualify for Medicaid nursing
       home benefits in the State of Washington. We selected Washington because of a
       State law--the Deccio Amendment--which permits unlimited transfer of assets
       between spouses for the
                                purose of qualifng for Medicaid.
      Stories alegig that r-eople with large incomes and assets are able to qualify for
      Medicaid long-term. ca.ehefitsby "gamng the system
      years. . In                                                  " have been common for
                          !e         BU5ine ss. Week wrote: The same people who rely on
      tax planng and makellseof every loOhole in
                                                         the tax laws to build up their
      assets... can use the same techniques to keep them--and
       Business Week, l23) Generally, however
                                                                  stil qualify for Medicaid.
                                                     , information about transfer of assets
      and other shelters ' has been aneoooraL- - -

      To determne the actual extent to which Washington State residents can legally
      preserve income and assets and stil qualfy for Medicaid long-term care benefits
     examined a random sample of nursing home beneficiaries over the age of              , we
     were initially denied eligibility for assistance                              65 who
                                                      , but were later approved. Appendix A
     describes our methodology.

     The background ,              legislative history and programmatic significance of the Medicaid
      tranfer of assets" rules were examned in the
                                                                 Offce of Inspector General' s (OIG)
     June 1988 national program inspection entitled 

                                                                  Medicaid Estate Recoveries . Since

     publication of that report, the Medicare Catastrophic Coverage Act of
     (MCCA) became law (PL 100-360). The MCCA tightened Medicaid eligibility               1988
     criteria in some respects and loosened them in others.
                                                                         For example , transfer of asset
     restrictions were extended from 2 years to 30 months
                                                                      , but the treatment of income
     and resources was liberalized substantially to protect community spouses. \Ve
     completed this study before MCCA became law. Nevertheless
                                                                                 , our findings and


         Title 74 ofthe Revised Code of the State of Washington provides at 74
         ineligible for medica asistance... if the person knowigly and                09.532 A person is
                                                                           \vilfully assigns or transfers cash or
         other resources at less than fair market value.. .for the purpose of qualifying or continuing to
         qualify for such medical cae withi 2 years preceding the date of application
         Provided that for the purose of qualifyng for such cae..                            for such care:
                                                                      .this section shall not prohibit thG,
         voluntaty transfer or assignment between spouses
                                                            " (Emphasis added. ) According to the
         conference commiuee report (synopsis as of April 9
                                                              , 1981): ' This bil is needed to tighten
         law to prevent people from defrauding the Medicaid program by transferring large assets up the
         immediately prior to applyig for assistance." An earlier version of the bill limitcd intcrspousal
         transfers to $175 00 for the principal residence and $15
         did not contain these limits.
                                                                  00 cash. The final version of the law
recommendations are not materially affected by the new law
                                                               , but rather point to
further enhancements along the lines begun in MCCA.

As a result of this inspection case study of Washington State
                                                                , the Offce of Inspector
General will conduct a national inspection of Medicaid asset shelters to determine
(1) their fical impact in other States , (2) the availabilty and distribution of
information on legal asset shelters and (3) the extent of concealment
financial abuse of the elderly to qualfy for Medicaid.                   , fraud and
   FINDINGS



  CASE REVIEW:           The elderly and their familes transfer or shelter large
  amounts of money and property to qualiy for Medicaid in
  State.                                                            Washington

  We originally selected a sample of 360 cases; however
  criteria. Al 198 were intially denied eligibilty-- 114 Or, only
                                                             5: .
                                                                  198 met our study
                                                          6 percent were approved
  for Medicaid nursing home benefits within a few months. Most
                                                                 of these
 (73 percent) were denied intially because of excess or improperly  transferred assets
 but quickly reapplied and qualified havig successfully resolved the resource
 problem. The box insert below highlights a few examples. Appendix B provides
 more examples and further details.

                                        SAMPLE CASES

 Case #12: Transferred $153         500 to adult children using an irrevocable trust.

 Cae #41: Used $50         000 to payoff a note on the famly home which is exempt.

 Case #114: Removed applicant s name from bank accounts and certificates of
            deposit (totaling $206 363) and from the famly residence ($40
                                                                          000).
 Case #245:      Tranferred propert with an assessed value of $433
                                                                       000 to the well
                 spouse . li to quali the incompetent for medical assistance benefits...
                 according to the court order.

Of the 114 subsequently approved cases , 88 or 77.2 percent
                                                                reported that they
possessed liquid assets at or before the time of their initial denial totaling S 1
and averaging $19 206                                                              690 , 160
                           per case. Thirt-six cases or 31.6
                                                             percent had home equity
totaling $1 522 837 and averaging $34       610. Eighteen cases or 15. 8 percent had other
real property totaling $751 822 and averaging       $41   768. Finally, 45 cases or 39.
percent had other assets totaling $269 436       and averaging $5   987 per case. In total
we found that 100 cases      or 87. 7
                               percent possessed 1 or more of these assets totaling
   234 255 and averaging $42 343 per case.

How could these people have qualified for public assistance so quickly? Clearly,
much of what they owned , such as homes , automobiles and life insurance policies
were at least partially exempt from Medicaid eligibility resource limits. A large
portion of their assets must have been disqualifyng, however
cases were initially denied eligibilty.                                   l\ of the
                                                                     , because
.(




       In aU four categories of assets ,  interspousal transfers account for the protection of
      more assets than any other known form of disposition. 2 InterspousaI transfers
      explain 68. 1 percent of liquid assets disposed
                                                        , 46. 0 percent of disposed residence
      value , 73.4 percent of other real propert and 35. 1 percent of other assets. This
      finding is not surprising given the " Deccio " exemption of such transfers in
      Washington State. Other
                                    tyes of disposition are much less signficant and account
      for too little of the total assets to be analyzed confdently by
      C contains the raw findings by                                     tye of asset. Appendix
                                         tye of asset.
      Some interesting observations emerge when we examine total assets by
      dispositicn (Table 1). Interspousal tranfers account for 59.                             tye of

                                                                               0 percent of total assets
      but only 15. 8
                  percent of the cases. It appears that a few people are saving most of
      the money under ths eligibilty exclusion.

           TABLE 1. ANALYSIS 




     Type Of Disposition
                                                       Cases
                                        OF TOTAL ASSETS BY TYPE



                                                      No. Percent Amount
                                                                                OF DISPOSITION
                                                                           Disposed Amounts
                                                                                      Percent
     SHELTED ASSETS
        Tranerred to Spouse                                       15.
        Tranerred to Adult Chidren                                        $2,498,246     59.
                                                                             46, 078


      CA
                                                                                         10.
        Retaied as Exempt                                         61.4       454 246     10.
        Subtotal                                      85*         74.


     OTHER
                                                                             412 570     80.
     CONSUMD FOR NUSING
       HOME                                           46 40.
     UNKOWN 23
            5 4.                                                             329 332



     TOTAL 14 0* $4,
                                                                             112 054
                                                                  20.2       380 299
     NO ASSETS TO DISPOSE
                                                     114. 100.
      These colum are not additive. Each cae could dipose of each
                                                                                 255 100.
                                                                          tye of aset by different methods
     which creates a duplicate count. The " total" of 114 represents all unduplicated approved
     dollar figues are not afected by duplication, because they acce to                         caes. The
                                                                            the diposition categories
     regardless of cae source.

     The category "consumed for nursing home care " means the assets were used to pay
     for care in the maner commonly referred to as spend down of resources. Although
     spend down accounted for only a small percentage of total dollar dispositions
     touched over 40 percent of the people in the sample. This finding agrees with, it
                                                                                    an
     observation in our earlier work on Medicaid estate recoveri s. People with large
     assets who are accustomed to consulting attorneys and accountants can preserve
     their holdings by obtaining good professional advice , whereas people with modest



         Case record documentation for the sample was frequently incomplete. We often were unable to
         determie the disposition of an asset. The tye of asset disposition was shown as unkown
         whenever this occurred.
           . .           :-.




  savings often lose what little they have to nursing home costs before they learn the
 ins and outs of Medicaid eligibility.

  Monthly income of Medicaid nursing home reci
 it must be contributed toward their cost of care.fients   important because most of
                                                    Dataisfor May 1988 indicate that
 the average recipient in Washington State costs $1692 per month to maintain in a
 nursing home. Recipient income contributes $438 or 25.
                                                            9 percent. Table 2 shows
 the sources and amounts of income in the 114 approved cases which were initially
 denied. These cases contained 151 sources of income at $440 per source.
 investment income. Al investment                                            None had
                                     grade assets apparently were sheltered or
 commmed to qualify for assistance. Average income per case was
                                                                    $583 per month
 but incomes ranged fr.om$25 per month for 15 private pensions to $477 per month
 for 107 Social-Secuty benefidaries.:

                 TABLE         2. .   INCOMcSOURCES1=OR APPROVED CASES

                                                        Cas                 J'Ionthly Amount
   Income Sourc
    Soci S-ecurty.
    Veteran Beriefits
                         .
                                                  No. Percent
                                                  107 93.
                                                      15 p.
                                                                            Total
                                                                           $50   99
                                                                                 671
                                                                                      Average
                                                                                        $477
    Raioad Retement
    Other Governent
                                                                                 563     445


      Benefits                                                                 432       429
    Private Pensions                                          13.              834       256
    Totallocome Sources                           ISI                       66,499       440
       Total Cases                                114     100.             $66 499      $583
   Because caes may have more than one income source, their percentages do not add to 100 percent
    and the average total per cae       exceeds any   component average.

 Our fidings on recipient income in Washigton further disagree with general
 beliefs concernng spend down. National data on nursing home costs for
                                                                              1986
 indicate that 50. 9 percent or $19.4 bilion was paid by private individuals without the
help of insurance. This high out-of-pocket cost is cited frequently as evidence that
the public is spending down their life savings in private pay nursing home status
before becomig impoverished and qualifg for Medicaid. The out-of-
                                                                             pocket
figure is derived , however, by adding all known payment sources (e.
                                                                         , Medicaid
Medicare, private insurance , etc. ) and subtracting the total from total nursing home
costs nationally. The remainder is presumed to represent direct costs to private
individuals. In Washington State, however , a considerable portion of this
 out-of-pocket " cost is really the contribution of personal income to the cost of
                                                                                   care
of Medicaid recipients. This is money that recipients would have spent for normal
living expenses even if nursing home care were unnecessary. It does not represent
spend down of an estate.

    Some exclusions exist , however, such as a $25 per month personal needs allowance
                                                                                      , a spous
    allowance in some cases; money spent for third party insurance coverage , etc.
                                                                                      : "




   Because comparable data State- by- State are not av
                                                        ilable , we cannot say what
   proportion of Washington s out-of- pocket costs can be explained    in this manner.
   We do know, however, that patient contributions to cost of care in Washington for
  May 1988 were 34. 9 percent of the amount contributed by Medicaid. The
  comparable figure for an 8-month period in neighboring Oregon State was
  percent. If such figures are representative of the                             31.2
                                                     tyical situation nationally, then a

  large proportion of out-of-pocket costs can be explained in this manner.


 PROJECTIONS

 Our 16. 8 percent sample yielded $4 234 255 in total assets among 114 originally
 denied, but subsequently approved, Medicaid nursing home cases. Projected to the
 universe of our sampled population, the full year figure in
                                                             Washigton is
 $27 495 162. This is.14.3 percent oftotal Medicaid
                                                      nursing home benefits in the
 State for 1986. This figure does not take into account assets sheltered by (1) the
 majority of Medicaid recipients who were already on assistance when we conducted
 the study, (2) individuals in the nonapproved category who may end up on assistance
 while stil sheltering assets or (3) people who have not applied yet.


 INTERVIEW RESULTS:
                                    Advice on how to qualiy for Medicaid nursing
 home benefits is widely available; abuse Is common.

We intervewed 32 persons who give professional advice on Medicaid long-term
care eligibilty. We asked them about the people who seek their advice
                                                                           , the
infonnation they provide , the sources of their funding and the techniques     used to
shelter or divest assets. Our intervews involved five categories of respondents:
private attorneys , legal servces attorneys , social workers, Medicaid representatives
and others.


ELDER LAW IS GROWING

 Elder law deals with all aspects of laws that affect older people.
                                                                              Estate planning,
which traditionally emphasized what happens to property after death
                                                                         , focuses
increasingly on planng for incapacity during life. One of the most important
objectives of elder law is to help the elderly and their families take full advantage of
available public long-term care funding sources. Medicaid is by far the biggest
source. 4 Thus, according to the November 26 , 1987 New York Times                  such
                                                                              A new
breed of legal specialist is advising elderly people how to protect
                                                                             their financial


      Medicaid paid 415 percent of total nursing home costs in 1986 compared to 6,
                                                                                     1 percent from
      Medicae and-    al other public sources.
,(



        assets , maxmize eligibility for Medicaid and avoid being impoverished by the high
        cost of health care , especially nursing homes.

        The Washington State Bar Association has sponsored continuing education seminars
        on elder law. Training materials for one course advised that:
                   there is no dollar limit on how much can be transferred.
                 there any time limits or requirements. An
                                                                             Nor are
                                                             il spouse can transfer all of
                 his/her interest in propert to the well spouse on one day and the next


                          5)
                 day make application for medicaid. Milions of dollars in resources
                 can be tranferred or
                pps. 4-
                                     hundreds of dollars. (Thompson and Wechsler

       A staf diector of the- Amerca Bar Asocition's Commssion .
                                                                           on Legal. Problems
       for the Elderly said- th       semar5-on' elder.law have now' been offered in every State
       in the country. Five years ago 1hese courses were available in only a few States.

       We intervewed seven.attmeyswho actively practice health
                                                                                     , disabilty or elder law.
       They counel:an average              eight eiderly people per'month . on how to qualify for
                                       :of '

       Medicaid long       ter care benefits while preservng assets and income.  Their
      Medicaid clients own an average of $140 000 in assets of which $55
      equity. Although rare , some caes involve sum up to                    000 is home
                                                               $1 milion. With certain
      qualifcations, the attorneys said that 95 to 1O0 p ercent of these assets can be
           rved while qu        gfor M       aid. Clients were referred t hes ' attorneys by
      many sources, including hospital discharge planers
                                                            , social workers, welfare
      caseworkers , medical doctors , other attorneys and clients or as a result of public
      speakg engagements with retiee groups.
      When we asked how elder law attorneys help their clients qualify for Medicaid
                                                                               , we
      received a wide range of anwers. But one response encompassed everyhing we
      were told:

                   SAMPLE MEDICAID ELIGIBII,TY PLAN BY AN ELDER LAW ATIORNEY

     I do everyhig from the     begig   including al of the paperwork. For a fee of $950 , I guarantee
     eligibilty withi 30 days. Income makes no diference. I have never see
                                                                                 a cae with too much income
     to qual, because the couple s income is split in hal to qualify. Washigton     is a spend down of
     income State. I change the ownership of al property includig life
                                                                          insurance policies , car titles , mobile
     homes, residences and other real property, ban accunts
                                                               , certifcates of deposit
     or private bonds, and anythig else. Property tranfers go from the il to the well , stocks , government
                                                                                         spouse. If the client is
     competent, I do a Power of Attorney to establih authority for the transfers; otherwse
     guardianhip and we get the court to order the tranfers. If a contract or                 , I do a
                                                                                deed of trust is involved , I do
     an assignent so that the income becomes separate to the well spouse. I help them buy burial plots
     and other exempt property. I search the Code of Federal Regulations for al possible "
     help the family obtain the necessar documentation , verications                             set-asides." I
                                                                           , and signatures from banks, the Social
     Security Administration , other private and government pension plans
                                                                                , etc. I even go to the nursing
     homefor the patient' s signature if necessary. Finally, I fill out the Medicaid application and go to the
     eligibility intervew with the family. I have been doing thi for 2 and 1/2 years
                                                                                         and it is 90 percent of my
     practice. I fell into it by accident taking referrals from the local legal servces agency
                                                                                                  which does the
     same thing I do, but for free , under a Federal grant.
- (




        Several attorneys said they provide free informational hand-outs on Medicaid
        eligibility and on how to qualify while preservng income and assets. They also refer
        clients who are unable or unwillng to pay their fees to the legal
        Some observed that qualifyng for Medicaid                          services agency.
                                                      is so easy that people do not always
        need professional help.


        The Legal Arsenal Is Diverse

        We asked about specific techniques to qualify people for Medicaid nursing home
        benefits while preservng assets and/or income. By far the most
        recommended without exception by each of the respondents, wascommon     procedu: e
                                                                        interspousal
        tranfers as permtted under the Deccio amendment. Statutory
        the home exemption are universaly known and                       exclusions such as
                                                           used. Other techriques mentioned
       include:
            (1) trusts , including revocable , irevocable; craven, two pot and other
            (2) purchase of exempt assets such as homes                               variations;
                                                            , home funishings , color televisions
                and other personal propert;
           (3) lie estates, wherein permanent ownership is sold or given away while the
                right to use the propert is retaied; ,
           (4) joint tenancy with right of survvorship;
           (5) divorce;
           (6) relocation from other States to take advantage of Washington
               eligibilty and transfer of assets rules;                          s lenient
          (7) intent to retu;
          (8) gifts, gift plans and estate plan.1Jng;
          (9) durable power of attorney and guardians hips which allow others to dispose of
               a sick elder s assets; and
          (10) miscellaneous techniques such as care contracts or nonsupport suits.
      One respondent said There are probably another 10 sheltering
      everyhing has been tried at one time or another.                     techniques;
                                                            " Some respondents expressed
      concern about the new limits on asset tranfers in the MCCA. One volunteered
      however, that "people will just fid more creative solutions for hiding or disposing
      assets in a legal way.


      Legal Services Attorneys Offer Advice

      Elderly people and their families , who need legal advice to protect assets and qualify
      for Medicaid , do not have to rely only on attorneys in commercial pructice. \Ve
      spoke to representatives of three organizations which provide free guidunce.
                Evergreen Legal Servces spends $60
                                                     000 per year to assist people to
                qualify for Medicaid of which 90 percent is federally- funded.from the
                Senior Citizens ' Act.
               - - ,--
       . ,-.-- ... ..- ---.
                "'-..- .    -. ..--.,-
                        _. ....
                            ..". - -    - "----
                                      -_..
                                    .._..
                                       --.
                                   ":: '      - ----
                                             ._.    -.:. -...
                                                  - ..
                                       '':-. :::---
                                                 -..
                                                   -- -
                                                      . --.. ::-. -_. . - -- --.-.:::
                                                                  :-: ".
                                                                     :-. ."
                                                                    --   --=-- .. - .   :.
                                                                                   _. .. -




          . Gonzaga University Legal Assistance runs a Senior Citizens Law Project
              which uses law students to counsel the elderly on Medicaid eligibility and
              transfer of assets. Funding, which is part Federal , comes from the

                                                                                   Area
              Agency on Aging, the law school and the Legal Servces Corporation.

              Senior Rights counsels 20 or 30 people per month on transfer of assets to
              qualify for Medicaid. United Way provides the funding.
 Legal servces attorneys recommended the same asset sheltering techniques
 enumerated by their colleagues in private practice. Two of them also
                                                                                                       have private
 Medicad practices helping. an average of six people per month preserve a home and
 $100 000.. Their publicly fuded clients usualy have fewer assets (e.
                                                                      , a home and
$10, 000 or.Iess:):-:-
                                                                  .. b .
                                                                                             .. 0..




Social SeNiceAgencies Provide Referrals

Social seIVceagencies .are one step removed from the legal exercise of structuring
assets to. qual peopJ.forMedkaid: Although they provide simple advice on
sheltering resources , their main function in this arena is to refer anyone with
propert to a private or legal servces attorney.
We intervewed eight representatives from a varety of agencies including the Red
Cross Aid to Agig Program the Foundation for the Handicapped , Harborvew
Hospital , the Kig County Prosecutor s Offce and the King County Division of
Aging (the loca Area Agency on Aging).

These agencies counsel 895 clients per month on senior issues including Medicaid
eligibilty and legal referrals. They reported the average assets of clients seeking
Medicaid eligibilty at $34 000, not counting homes. The agencies are well
publicized and often refer famlies to each other. A few of their servces are
highlighted:
        . The Foundation for the Handicapped manages elderly clients ' assets.
            They purchase room furnshings, clothing, television sets , stereos , chairs
            etc., with a client's assets to assure his comfort in the nursing home while
            simultaneously qualifyng him for Medicaid benefits.

       . Harborvew Hospital staff counsel 5, 000 elderly patients per year. They
         complete and submit Medicaid applications for everyone they think is
           eligible.

       . The King     County Division of Aging annually spends approximately
           $2 milion dollars (half Federal) to assist 2 200 elderly people. Medicaid
           eligibilty counseling is an important part of the servce , including
           referrals to legal servces.
 Although referrals are their main contribution , some Medicaid counseling is quite
 sophisticated For example: " We do suggest to the elderly that if they have brothers
 or sisters to whom they want to leave estates, they should direct the estate into
 trust instead of leaving it directly through a will. Otherwse, the sibling might lose
 Medicaid eligibilty.


 Washington s Medicaid Agency Helps People Shelter Assets

 We intervewed five representatives of the Department of Social and Health
 Servces (DSHS)-- Washington s single State Medicaid agency. They included
 expert on eligibilty policy,   eligibilty   determation, trsts and adult protective
 servces.

 Medicaid staff routinely advise applicats with excess assets to exbaust their
 resources or consult an attorney. Individual eligibilty workers may
                                                                      suggest specific
 asset protecton techniques-- it' s okay to tranfer resources to a spouse  " or " intent   to
 return is so liberal , DSHS does not even question it. II The box insert below
 highlghts some examples from caes in our sample. A private attorney told us the
help an applicant receives depends entiely on the "luck of the draw
                                                                      " among
caseworkers. One kid of eligibilty worker ' 'believes hisjob is to help qualify
people for assistance... the other kid says 'go away and stop ripping off the system.

Supervsors and workers are very aware of asset shelters. They cited the same
technques listed by private and public attorneys. A financial servces specialist
                                                                                    , who
monitors cases handled by eligibilty workers, said that 98 percent of married
applicants have tranferred at least a ban account. " Most retired couples coming on
for the fist time have at least $10 000. Some have so much we don
                                                                       t know how
much they have. " One case had four single-spaced                listing  transferred
                                                    tyed pages
assets. Another respondenttold us 20 percent of applications begi with excess
resources ranging up to $100, 000. A third said , "Te idea to
                                                              spend it on a spouse
long-term cae costs never ares. " In fact some of the largest asset shelters are
done to qualif for Washington s home and community- based care program
(COPES)--not because care is needed , but to obtai the peripheral benefit of drug
reimbursement.

Approximately 2 or 3 percent of Washington s Medicaid nursing home caseload
involves trusts. A staff attorney told us she reviews one trust case per month
averaging $100, 000 to $200, 000. She also does personal injury settlements which
although they do not usually affectthe elderly, do involve Medicaid long-
                                                                           term care.
These settlements are much higher, involving lump sums and annuities of $1.5 to
$3. 0 millon. Although people have these assets, ' They stil want Medicaid to pay all
                                   .. -   _. -            , "





   medical costs. " The trusts have very precise language. They quote the Federal laws
. and regulations , including the Consolidated Omnbus Budget Reconciliation Act
   (COBRA) of 1985 5 which was supposed to make trusts much less effective as
  Medicaid shelters. The language in the trusts is "virtually identical. There is no
  doubt the private attorneys are sharng notes. " Sample trusts are passed out at
  lawyers ' semiars. Although the Attorney General' s offce tries to attack the trusts
  they have had little success. Admstrative law judges reportedly are reluctant to
  challenge truts set up. through Superior Court, and the Health Care Financing
  Administration (HCF A) has not provided the necessary guidance on interpreting
  the COBRA Medicaid Qualifg Trust Law.


Nursing Home Representatives Concur

 We talked to several nursing hOIe- adminitrators                and private long-term care
counselors. Representatives of the nursing home industry confrmed the widespread
use of interspousal and gther tranfers.  TJy said trustS, intent to return
commngling of assetS?-and gift, .such' as deeding over the house or vacation
proper to-the chiken;a:e eommIt Each said that Medicaid eligibilty staff and
other social workers counel        people on how to tranfer          assetS while qualng for
Medicaid.


Fraud and Financial Abuse Were Common Themes

Nearly everyone we intervewed knew of people who either misrepresented their
                     qual for Medicaid or were expropriated by others and forced
financial situation to
onto public assistance. For example , one attorney told us that clients ask: "
                                                                               Wil I get
caught? Do they (i.e. , Medicad staf check and verify what I tell them? Do they
prosecute?" A nursing home admitrator said 10 percent of the people we see
involve a little bit of di wash. " Often, however, the perpetrator is not a Medicaid
applicant or recipient, but rather a frend, relative or unrelated third part with a
pecuniary interest in the infrm elder's estate.

Financial abuse of the, elderly, according to study respondent , is " commonplace
bigger than anyone:t i1,""rife. " We heard many stories about people forced onto
Medicaid when theirincome or resources were taken. For example:
        . A dean of admissions and his CPA son " took                grandma s Cadilac and
            rental houses.

    42 V.   C.   1396a(k)

    Commingling of asts is the practice of   mig the income or assets of a nursing home patient
    (especially Social Security income) with those of the personal representative so that money is lost
    which should pay the costs of cae.
           Children became payees for their parents' income and then refused to pay
           the nursing home.

        . The son of an Alzheimer s patient neglected to report $65
           mother " intended him to have the money.                   000 because
   his

        . A contractor fraudulently sold $40
                                             000 of remodeling to a frail old
          woman went banpt , and was allowed by the
          back 5 cents on the dollar.
                                                        Bankptcy Court to pay
Although governent assumes the cost of care in such cases, detection
and recovery are very diffcult.                                        , enforcement
                                Usualy, there is no hard proof. Often the victim is
incompetent or wi not testify against a loved one.
   RECOMM ENDATIONS

   RECOMMENDATION # I-- DOCUMENTATION OF LEGAL SHELTERS

  FINDING: During 1 year, 57. 6 percent of Medicaid nursing home applications
  denied in WashiIigton State were on assistance within a few months.
  87. 7 percent originally possessed liquid assets                                   Of these cases

                                                  , homes, other real property, and other
  assets totaling $27. 5 millon or 14.3 percent
                                                of the State s annual Medicaid nursing
  home budget. To qualif themselves for public assistance
                                                               , 15. 8 percent of these
  cases tranferred 59.                 rcent of the assets to spouses; Conversely, only 7.

  cases.
                              0 p. 


  of the origialy           3ilable                                                          8 percent
                                           ets were spent down for care by 40.4 percent of the


 RECOMMENDATION: The Washington State Medicaid agency
                                                                          should:
                    improve case record documentation to assure that asset values and
                    dispositions are recorded in al cases and

             . implement        an information storage and retrieval system to measure the
                    impact of interspousal tranfers
                                                     , trusts , purchase of exempt assets and
                    other shelters on the availabilty of Medicaid resources for poor people.
 IMPACT: These improvements will enable State and Federal
 the full extent and impact of shelters. 

                                                                             officials to determine

 The following findings and recommendations are
                                                   repeated from 

                                                                   Medicaid Estate
 Recoveries, with minor alterations to reflect changes in the Medicare Catastrophic
 Coverage Act.

RECOMMENDATION #2-- ELIGIBILITY AND
                                                               TRETMENT OF RESOURCES
FINDING: Some HCF A, SSI and State Medicaid policies promote
assets during Medicaid eligibilty while others encourage precipitousretention  of of
                                                                     liquidation
property with concomitant losses in value. Assets retained by recipients
absence of estate recovery programs, pass unencumbered to .heirs at the , in the
the taxayers. Assets                                                                  expense of

                              liquidated ,
                                 sheltered or concealed to obtain eligibility
as a long-tenn care funding resource also. Incapacitated elderly people are are lost
sometimes financially abused by people who want to take their property, while at the
same time , qualifyng them for Medicaid nursing home benefits.

RECOMMENDATION: Change Medicaid rules to permit families to retain and
manage propert while their elders receive long-term care. Specifically:
               Eliminate SSI "intent        to return " rules as they apply to Medicnid long-term
              care recipient
             Reinstate and broaden the " bona fide effort to sell" exemption.

         . Allow Medicaid recipients to retain more income-
                                                            producing property
           such as " contracts of deeds " or rental homes.

            Require agreement to liens and estate recoveries as a condition of
            Medicaid eligibilty for people with propert.

            Encourage State Medicaid programs to protect recipients and their
            propert from financial exploitation through conservatorships
                                                                            , legal
            representation and propert management when necessary.

 IMPACT: Ths policy would ease the financial impact of catastrophic long-term care
 costs on the elderly and their famlies , giving them time to cope with the problem.
 Total Medicaid COSt$ would decline as estate recoveries increase.


 RECOMMENDATION #3-- TRASFER OF ASSETS

FINDING: Despite (1) alost            unversal   State implementation of the TEFRA
 authority to restrict tranfers of assets for the
                                                  purose of obtaining Medicaid
eligibilty and (2) mandatory tranfer of assets restrictions required by MCCA,
people are stil able to give away, or otherwse shelter, propert to qualify for
assistance. This may be done by using the legal "loopholes " recommended in law
journal arcles or by deceit and concealment.


RECOMMENDATION: Strengthen the tranfer of assets rules so that people
cannot divest themselves of propert to qualify for Medicaid. Specifically:
       . Improve          State verication of propert and transfers.

          Clarfy that the " tranfer of assets" restrictions apply to all property
          including that which is, or would be , exempt from eligibilty
          determnation.
          Exressly prohibit the transfer of property to spouses and other
          dependents which is permitted under current law.

          Extend the current       3D-month      look-back" period to 5 or more years.
       . Have HCFA publish regulations on transfer of assets.
IMPACT: More property will be retained by recipients to reimburse Medicaid for
their cost of care after they and their dependents are no longer in need.
                                    ~~~                       , "




   RECOMMENDA TI ON #4-- LIENS

   FINDING: State Medicaid programs need to track property owned by recipients
  and ensure that it is not transferred or otherwse disposed before recovery of
  Medicaid benefits can be accomplished. Liens achieve these objectives most
  efficiently. While permtting liens TEFR
                                                placed so many qualifications on their
  use that only two States have employed liens to secure
  benefits correctly paid.

                                                          propert for recovery of

 RECOMMENDATION: Require a legal instrument as a condition of Medicaid
 eligibilty to secure propert owned by applicants and re( '
 Specifcally:                                               pients for later recovery.

            I\ake-1ie      or som     her form of encubrance , a condition of eligibilty
            so that the recipient' s interest in any propert solely or jointly owned will
            inure , up to the cost of care paid by Medicaid
                                                           , to the Medicaid program
            when neither
                               . recipient nor dependents need the property
                                                                              further.
         . Promote home equity conversion by using liens
                                                         voluntary mortgages
            opeh ended irortgages" arid aCC01 mts receivable to let people extract
           their equities gradualy whie they receive assistance.
 IMPACT: Mandatory liens would secue the State and Federal Governent'
 investment a.T1d permt Medicaid recipients to retain needed property while
 receivig highly expensive ,   but essential , care.
RECOMMENDATION #5-- ESTATE RECOVERIES

FINDING: Less than half of the States pursue Medicaid estate recoveries for
benefits correctly paid. Of those which do , a few are very effective
The HCF A and State Medicaid managements place little emphasis, but       most are of
                                                                      on retention not.
recipient propert or estate recoveries. The TEFRA authority for estate recoveries
as for liens , is only voluntar. Many State staff believe that
                                                               TEFRAinterests.
hobble estate recoveries without safeguarding legitimate recipient    limitations

RECOMMENDATION: Increase estate recoveries as a nontax revenue source for
the Medicaid program while steadfastly protecting the property rights of recipients
and their dependents. Specifcally:
       . Make estate recovery programs mandatory like other forms of third party
          liabilty.

          Provide technical assistance on estate recoveries
                                                              , so that States can
          implement them quickly and easily to generate an immediate cash flow
          for the Medicaid program.

      . Promote awareness of the importance of real property ownership and
         estate recoveries for Medicaid funding.
       . Allow   estate recovery of benefits received before age 65.

          Permit estate recovery in cases of joint tenancy with right of survvorshi p,

          Require spousal and dependent recoveries upon death or seniority (of a
          minor child).
IMPACT: Based on Oregon s experience--even under current restrictive laws
reguations and  policies--estate recoveries can recoup 5. 2 percent of Medicaid
nursing home costs, 5. 0 percent of Medicaid payments to people over age 65 and
1.7 pecent of total Medicaid vendor payments. With enhanced legal authorities and
greater programatic emphasis, the contribution of estate recoveries to Medicaid'
program resources could be truy staggering.
                       ,"
                   , ", "          , " ,"
                                     , ', " . .




    BIBLIOGRAPHY

                      Comments: The Effect of Asset Transfers on Medicaid Eligibility,
   University of Pennsylvania Law Review                   Vol. 129 ,   April 1981 , pps. 882- 910.
   American Bar Association, "Doing Well by Doing Good: Providing Legal
   to the Elderly in a Paying Private Practice " Commssion on Legal ProblemsServices
                                                                             of the
   Elderly, Washington, D. C., 1985.

  Carlucci , Timothy N.
                        TP_e Asset Transfer Dilemma: Disposal of Resources and

  369-   87. ­
  QuaIificatioD'for' edicad- sistance Drake Law Review
                                                           Vol. 36 , 1986­ , pps.

  Davis , Clayton, "Solving Common Problems in Long-
                                                     Term Care and Medicaid
  Financial Eligibility, The Alabama Lawver Volume 46
                                                       , Number 6 , November 1985.
 Deford , Gil Medicaid liens, Recoveries , and Transfer of Assets after
 Clearinghouse Review June 1984.                                        TEFRA"

 Delbaum, Charles M. Financial Planng for Nursing Home Care: Medicaid
 Eligibilty Considerations,"
                                  Ohio State Bar Association Report, Volume 57
     , April 2 , 1984 , pps. 372-381.                                          , Number

 Donahue , Patrick H. Medicad and Long-Term Institutional Care for the Victims
                                Journal of the Kansas Bar Association Vol. 56
 of Catastrophic Disabling Iless," 


 September/October 1987, pps. 26-35.

Driner, Paul Medicaid' s Unhealthy Side Effect: The Financial Burdens on
At- Home Spouses of IntitutionaIed              Lovola UniversitY Law Journal
                                                  Recipients,"
Vol. 18, Sprig 1987, pps. 1031-52.

Duncan , Glen, " Public Attitudes About Contingency Planning for Long-
Needs," Beverly Foundation, July 1986.                                Term Care

Dunn , Donald H. , editor Easing the Burden of Nursing Home Costs
Week No. 2883, March 11 , 1985 , pps. 123-4.                      Business

Dussault , Wiliam L.E. Chapter Two: Plannng for Disabilty," in
                                                                    1985 Real
Property, Probate & Trust Mid- Year Meeting and Seminars (Prohate     & Trust
Materials, Volume II), Washington State Bar Association
                                                        , Seattle , Washington                        , 1985.
Ferreira, Louis A., "A Medical Assistance Overvew for the Attorney Advising an
Elderly Client in Idaho Idaho Law Review Vol. 24 , 1987­
                                                           , pps. 485:497.
                     ,, "," "                   , "
          , "




   Greenfield , Peter and Barbara A. Isenhour
                                                                    Medicaid for Nursing Home Care:
   Some Estate Planng Considerations
                                     Washington State Bar News Volume 40
   Number 6 , June 1986.

  Health Care Financing Administration, Region X
                                                                        Medicaid Transfer of Assets
  Seattle , Washington, October 24 , 1985.

  Hereford , Russ and Bruce Spitz ' Tranfer of
                                               Assets: State Practices Issues and
  Options " unpublished , prepared for the Medicaid Cost Containment, Commssion
  State of Connecticut, December 1983.

  National Health Law Program (Roger Schwar), "
                                                New COBRA Legislation Adopts
  Many Changes in Medicad and Other Health Programs
  Volume 20, Number 3, July 1986.
                                                     Clearinghouse Review

 National Senior Citizens Law Center Medicaid Transfer of Assets Update:
 Tries to Control the Hydra, Clearin~house Review                        HHS
                                                  October 1982                       ,pps. 431-433.

 Offce of Inspector General Medicaid Estate Recoveries.
 inspection No. OAI- 09- 86- 00078, June 1988.          national program

 Payne , John B. , Jr. Medicaid Asset and Divestment Policy,
 January 1987.

                                                             Michigan Bar Journal

 Rowland , Don, "Diviion of
 Bar Association. Vol. 55 , No.
                                                      The Journal of the Kansas
                                 Assets: A Status Report" 


                                , September/October 1986 , pps. 4­

Sabatino , Charles P. An Advocate s Primer on Long-
                                                   Term Care Insurance
Clearinghouse Review Special Issue , Summer
                                                               , 1986.
Simon, Mitchell M. Estate Planng and Resource Maxmization for the Elderly:
Medicaid Considerations New Hampshire Bar Journal.
                                                   Volume 25 , Number 2
Januar 1984   , pps. 101- 108.

Talis, Wiliam G., " Medicaid as an Estate Plannng Tool
                                                       Massachusetts Law
Review Spring 1981 , pps. 89- 94.

Thompson , Karen Marie and Barbara J. Wechsler
                                                                       Special Legal Problems of
Senior Citizens: An Overvew for the Family Law Practitioner
                                                                " in \Vhen
to Know: Family Law (Spring Family Law Section Round Robin Seminars)Yau                            Need
Washington State Bar Association , Seattle
                                           , Washington , 1988.
United States Code , Congressional and Administrative News, 97th
Congress-- Second Session-- 1982 , Legislative History (Public Laws 97-
Volume 2 , St. Paul , Minnesota , West Publishing Company.
                                                                        146 to 97- 248)
                                                                            APPENDIX A

                                     METHODOLOGY

  Background

  We focused the study sample on cases at the point of application for Medicaid
  assistance and determnation of eligibilty. We reasoned that cases
                                                                        initially denied
  but later approved for assistance , would yield the most transferred or sheltered
  assets. We sampled only for such cases.

  This method overlooked al    assets sheltered by everyone already on Medicaid. For
 example assets sheltered by.people who. successfuy:avaiI g th
 counselig and advice discused in the " Intervew Results                        the
                                                            " section of this report were
 not measured. Such people qualifed immediately for Medicaid and
                                                                        , therefore
 could not have fallen into our sample of denied and subsequently approved cases.
 The total ainOunt of-assets tr ferr cLand shelte,red by the Medicaid nursing home
 population in Washington State is left to the reader s inerence and to future study.

 Sample Selection

 Washington s Medicaid agency provided a vald random sample of recipients over
 the age of 65 who were initially denied eligibilty for nursing home assistance
were later approved. Based on data provided earlier, we originally estimated, thebut
universe of anual denied caes at 3000. We anticipated that 75 to 85 percent of
these caes would have reapplied and qualified for Medicaid by the time of our case
record reviews. Based on preinpection research , we expected approximately half of
the subsequently approved cases to have divested or otherwse sheltered personal
and/or real propert to achieve eligibilty. Given these parameters
                                                                    , a sample of
358 cases would have yielded a confdence level of 90 percent and precision of
10 percent. We actaly selected a sample of 360 cases. Unfortunately, only
198 cases met the study criteria because the State was unable to provide a "
                                                                             clean
sample. A total of 162 cases had to be dropped for a variety of reasons including
 deceased nonnursing home under age 65 " etc. Adjusting for a sampling period
of 11 months instead of a year (July 1987 through May 1988) and for a factor of
45 percent dropped   ases , the actual universe from which we sampled was reduced
to 1182 cases.



 Our 16. 8 percent sample yielded $4 234 255 in total assets among
                                                                    114 originally
denied , but subsequently approved , Medicaid nursing home cases. Projected to the
universe of our sampling population , the comparable figure in the \Vashington State
Medicaid nursing home caseload would be $25 203 898. This, however
                                                                        , is an
ll-month figure. Ifwe add a month to estimate an annual total , we get $27
                                                                              495 162.
Thus, projecting from our sample , approximately $27. 5 milion in assets were
sheltered or consumed to qualify.
 Methodological Caveats



(1) Because our review followed the sampling period by only a few weeks
                                                                         , other
cases within the sample probably have been or will be approved after our review.
Since they are not reflected ,   our findings are conservatively low.

(2) Sixteen of the 36 homes owned by sample recipients had no values reported in
the case record. Because homes are usualy exempt
                                                        , their values often are not
recorded. To estimate the total value of home equity in the sample
                                                                   , we assigned the
average value of the 20 homes with values recorded to
                                                            the 16 without values

recorded. Total values in the text, char    and   tables reflect this extrapolatic n.

(3) Other real propert values were extrapolated by the same methodology used for
home values. Sixeen of the 18 other properties had values recorded in the case
record.
           -..-... - --....... .. "_. ' -   . ."   . -" ..   . -. ",.   :... _. ,




                                                                                      APPENDIX 8

  SAMPLE CASES


  Case #12: Tranferred $153, 500 to sons with an irrevocable trust on
                                                                      November 25

  1986. Denied assistance October 5 , 1987. Case reconsidered
                                                                   , approved briefly and
  then closed. This case ilustrates the State s efforts to defeat trust shelters.

 Case #41: Denied August 17, 1987. Applicant and spouse separately held liquid
 assets of $235, 000. The applicant used $50 000 of his $80 000 to payoff a note on the
 couple s home. Some of hi "emainig $30 000 was evidently used to pay for care
 but the case record is unclear. Insurance in the amount of $8000
                                                                               was transferred to
 the wife. The. casewas' appr.oved September. 14 1987..... ,

 Case #114: Denied December 18, 1987. Disqualifyng bank accounts and
 certificates of deposit were in the applicant' s and spouse s names. The applicant
 name was removed from the ban accounts and certificates of deposit (totaling
 $206 363) and the famy residence ($40 000) as of December
                                                                  1987. The case was
 approved for nursing home cae on February 1 , 1988.

Cae #193: Denied August 18 , 1987. A home valued at $84 900 was transferred to
the spouse by quitclaim deed on July 2, 1987. Personal effects of $15
                                                                      000;
automobiles worth $5, 775, and liquid assets of $222 865 were transferred to the
spouse with a Durable Power of Attorney dated April 14 , 1986. The assignment of
assets document cites the "Deccio Amendment" (RCW 74. 09. 532) by saying that it
 expressly allows the tranfer of propert from
                                                one spouse to the other for the
purposes of qualifyng for medical assistance from the state to pay for full time
residential care and servces in a medically supervsed residential care facilty.
case was approved on October 20, 1987 with an effective date of July 1          " The
                                                                                    , 1987.
 Case #245: Denied September 17 1987; reapplied and approved on
                                                                            October 1
 1987. Propert with an assessed value of $433, 000 was' transferred to the spouse on
 June 26 , 1987 by court order. The purpose of the court order was "
                                                                        to cause all bUt
    000 of the incompetent' s assets to be transferred to the incompetent
                                                                              s husband
 (spouse), to qualify the incompetent for medical assistance b nefits under RC\V
 74.09. 532 (Deccio Amendment). " The applicant also owned and transferred
propert in another county for which we do not have an assessed value. In addi tion
the applicant had 9 ban accounts, including two in banks outside the
                                                                            United States.
\Ve were able to find the value of only one of these accounts which was $12
                                                                                  952.
The guardian for this case was given the following advice by the eligibilty worker:
  Our state offce in Olympia has recently changed the way we look at resources of
husband and wife. Now, even if there has been a court approved gift of all property
and the bank account stil has both names on it, we will count one- half as being
available to our client. For this reason you may want to remove (applicant
                                                                                 s) name
from all bank accounts, deeds , trust accounts , stocks , etc. and reapply.
  Case #263: Denied February 16 , 1988
                                            , but approved March 1 , 1988. A half interest
  in a home worth $33 100 and $149 000 in liquid assets were transferred
  spouse. The quitclaim deed for the residence explained: '                   to the
                                                                The Grantor (name of
  Medicaid applicantJ; for and in consideration of love and affection; conveys and quit
  claims to (name of spouseJ all interest in the following described real estate.
  case record also contained a letter from Metropolitan                            " The
                                                           Savings and Loan which said:
  This letter is to inform you that as of today, Februar 18
                                                             , 1988 , the (Medicaid
 applicant) has no legal claim to any funds held with Metropolitan
                                                                        Savigs and Loan.

 The account number (XJ has been closed. The funds in the aforementioned           account
 have been tranferred to account number (YJ in the name of (the spouse
 individual account with sole ownership of said funds.                        J as an

TRUST CASES

In addition to our sample of nursing home cas
                                              , we originally intended to analyze
examples of trut cases. We expected, based on
                                              preinpection findings , to be able to
obtai such examples by requestig them when we visited the local community
servce offces tb conduct our cae record reviews. Unfortunately, the Medicaid
agency does not have a
                         sytematic way to identi trust cases. We had to rely on the
memory of eligibilty workers. Most of the Caes identified
or the trust docuent did not have a list of assets attached.Were     not Medicaid cases

                                                               Therefore, we dropped
the analysis of specic trst caes from
                                         this report. Narative analysis and anecdotes
of trust issues are found in the "Intervew Results" section of
                                                                this report. This
analysis is based on our intervew with the trst
                                                 specialist in the Department of
Social and Health Servces s Offce of Attorney General.
                          _ ::.
                       ', -:      .: -,- "::.: . '-" .                      ----------'"




                                                                                                     APPENDIX C
  ASSET DISPOSmONS BY TYPE OF
                                                                    ASSET
  Tables C-l through C-4 indicate the disposition of the four categories of resources
  reviewed. The reader s attention is directed to the fact that the detailed breakdowns
  of residential and other real propert disposition are extrapolated to reflect
  estimated values for properties the value of which were unreported.




  of  TABLE C-1: DISPOSITION OF LlaUID ASSETS IN
 Disposition
 Ty
 Tranerred to Spouse .. ,
                                        Cases Disposed Amounts
                                      No. Percent Amount Percent
                                     15 13.2% $1            1 % $76           151,521 68.
                                                                                            APPROVED CASES
                                                                                                        Average
                                                                                                        per Case
 Tranferred to Adult    Clidten '---' 2"                                                                    768
 Consumed for Nursing Home Care      38 33.3 148,503 8.8 3
                                                  201,500. 11.9 100
                                 ':: 16:- 14. 0 22 621 1.3
                                                             , 1.
                                                                                                            750
 Retaied as Exempt.

 Unkown-                                                         1
                                                         17 14.9 166,015                          8 9
                                                                                                            908
                                                                                                            414

 Total Asts
 No Liquid Asets to Dispose


 Cases with Liquid
                                               ,.. 26 22.

                                                 114 100.0% . $1 690
                                                         88 77.2% $1,690, 160 100.
                                                                                           . 9.

                                                                                   160 1O(J.%
                                                                                                            766

                                                                                                       $14 826
                                                                                                       $19




     TABLE C-2: DISPOSITION OF RESIDENCES IN APPROVED CASES*
Tye
Disposition of Cases             Disposed Amounts
                     No. Percent        Percent
Tranferred to Spouse 11 9. 7% $700,704 46.                              Amount
                                                                                                       Average

Retaied as Exempt 8 7.0 267
                                                                                                       per Case
                                           0% 33
                                              $63
Unkown 4.4 198
Tranferred to Adult Chidren
                                   487 17. 6       0 36
                                                   7 39       3.5 147 408 9.
                                                                                  256 13.
                                                                                                           700
                                                                                                           436
                                                                                                           651
                                                              4.4 112 728 7.4
Total
Consumed for Nursing Home Care                                                                             852
                        3   2.  6   96                22
Other
No Residence to Dispose 78                254  6.  3 32      68.4
                                                                                                           546
                                                                                                           085
                       114 100. 0% $1,522 837 100.
Cases with Residences 36                                   31.6% $1 522 837                100,
                                                                                                  0% $13
                                                                                                  0%       358
                                                                             $42,301
* This table includes actual values of residences when available and average values
for homes which had no value recorded in the case record.
   of
  Disposition
 Ty
               TABLE C-3: DISPOSITION OF OTHER REAL PROPERTY


 Tranferred to Spouse No.
                   5 1.   Percent
                     4.8 89       Amount
                                           Cases
                                      IN APPROVED CASES'"
                                   Disposed Amounts

                            4% $551 436Percent
                                                                                                 Average
                                                                                                 per Case
                   2
 Tranferred to Adult Chidren                  73.4



 Other
                                                                                               $110 287
                            770 11.
                   7 6.   62,36
 Retaied as Exempt 2 1.8 25
 Consumed for Nursing Home Care                                                                     885

                   1 .9 ' 00285                                                 8.3

 Unkown 1 9 7 965 1.
 No Other Real Propert     to Dispose 96 84.
                                                                                3.4
                                                                                2.0
                                                                                                 12,643

                                                                                                       965
 Total
 Cases with ether Real Propert
                                     114 10().%               $751,822    100.                         595
 to Dispose                                   15.            $751,822     100.                  $41 768
 . Th table includes act     vaues for other rea propert   when avaiable and    average values if no
 propert value was   recor ed in the cae record.




 ofExempt 58
              Case Disposed Amounts
    TABLE C-4: DISPOSITION OF OTHER ASSETS IN APPROVED CASES
Disposition
Ty
            No. Percnt Amount Percent
                          853 51.5
                                                                                               Average
                                                                                               per Case
               4.89 -$13
Retaied as
    Spouse 25 1.
Tranerred to
                        94,585 35. 1 18
                       21 40 7.9 10
Transerred to Adult Chidren
                                              50.
                                                                                                $2,94
                                                                                                   917



 .  1
Unkown 1
Other
                1.8
                      45
                        5
Consumed for Nursing Home Care



Total
No Other Asets to Dispose
Caes with Other Asets 69
                                . 2.1 2
                                    114 100.
                                             39.5

                                             60.5%
                                                   9 80
                                                   9 8 063 3.0 8 735




                                                            $269 436
                                                            $29 436
                                                                         100.
                                                                         100.
                                                                               .3
                 700

                                                                                                  063
                                                                                                  800

                                                                                               $2,33

. In thi cae, the asets were tranerred to nonrelatives.
